No.

 

 

IN THE
Supreme Court of the United States

SHARRIEFF BROWN
Petitioner,
Vv.
CALIFORNIA DEPARTMENT OF CORRECTIONS AND REHABILITATION,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit :

CERTIFICATE OF SERVICE

eee TT

I, Moriah 8. Radin, a Deputy Federal Public Defender in the Office of
the Federal Public Defender, which was appointed as counsel for Petitioner
under the Criminal Justice Act, 18 U.S.C. ยง 83006(A)(b), and who is a member
of the Bar of this Court, hereby certifies that, pursuant to Supreme Court
Rule 29.3, on August 5, 2020, a copy of the enclosed Motion for Leave to

Proceed in Forma Pauperis, Petition for a Writ of Certiorari, Appendix, and
Certificate Pursuant to Rule 33 was mailed postage prepaid and
electronically mailed to:
Shira Seigle Markovich Counsel for Respondents
Deputy Attorney General
Office of the California Attorney General
800 South Spring Street, Suite 1702
Los Angeles, CA 90013
DocketingLAAWT@doj.ca.gov
Shira.Markovich@doj.ca.gov
All parties required to be served have been served. I declare under

penalty of perjury under the laws of the United States of America that the

foregoing is true and correct.

Executed on August 5, 2020 at Los Angeles, California.

ORIAH S. RADI

Deputy Federal Public Defender
Attorneys for Petitioner
*Counsel of Record
